                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: 111120046                                                                     Page 1 of 1



         An online news article reported that a non-profit organization 1 settled a civil False Claims Act
         case by agreeing to pay the U.S. government $1 million. The article reported that the
         organization falsely reported labor costs incurred under various federal grants. We initiated a
         case to determine if the NSF award 2 received by the organization had been affected. We
         requested relevant award information from the organization, and based on our review, we did not
         identify any issues.

         Accordingly, this case is closed.




NSF OJG Form 2 ( 11 /02)
